<html>
<title> - S. 883, THE AMERICAN MINERAL SECURITY ACT OF 2015</title>
<body><pre>[Senate Hearing 114-141]
[From the U.S. Government Publishing Office]



                                                      
                                                      
                                                      
                                                      S. Hrg. 114-141

                      S. 883, THE AMERICAN MINERAL
                          SECURITY ACT OF 2015

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                      S. 883, THE AMERICAN MINERAL
                          SECURITY ACT OF 2015

                               ----------                              

                              MAY 12, 2015





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                       Printed for the use of the
               Committee on Energy and Natural Resources























                                                        S. Hrg. 114-141

                      S. 883, THE AMERICAN MINERAL
                          SECURITY ACT OF 2015

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                      S. 883, THE AMERICAN MINERAL
                          SECURITY ACT OF 2015

                               __________

                              MAY 12, 2015



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-276                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001              
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
             Brian Hughes, Senior Writer and Policy Advisor
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Spencer Gray, Democratic Professional Staff Member
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
                            C O N T E N T S

                              ----------                           
                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Kimball, Dr. Suzette, Acting Director, U.S. Geological Survey, 
  U.S. Department of the Interior................................     5
Fogels, Ed, Deputy Commissioner, Alaska Department of Natural 
  Resources......................................................    11
Cosgriff, Vice Admiral Kevin J., USN, Retired, President and CEO, 
  National Electrical Manufacturers Association..................    33
Conger, Harry ``Red'', President, Freeport-McMoRan Americas......    39
Silberglitt, Dr. Richard, Senior Physical Scientist, RAND 
  Corporation....................................................    47

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Exploration & Mining Association
    Statement for the Record.....................................   416
Association of American State Geologists
    Statement for the Record.....................................   418
Cantwell, Hon. Maria
    Opening Statement............................................     3
Conger, Harry ``Red''
    Opening Statement............................................    39
    Written Testimony............................................    41
    Respons74Strategic and Critical Materials 2015 Report on Stockpile 
           Requirements by Under Secretary of Defense for Acquisition, 
        Technology and Logistics dated January 2015....................
                                                                     75
    Responses to Questions for the Record........................   409
Cosgriff, Vice Admiral Kevin J.
    Opening Statement............................................    33
    Written Testimony............................................    35
    Responses to Questions from Senator Hirono...................   359
    Responses to Questions for the Record........................   406
Fogels, Ed
    Opening Statement............................................    11
    Written Testimony............................................    13
    Responses to Questions for the Record........................   403
    Response to Question from Senator Manchin....................   404
Hartle, Byron C.
    Statement for the Record.....................................   420
The Industrial Minerals Association--North America
    Statement for the Record.....................................   428
Interstate Mining Compact Commission
    Statement for the Record.....................................   430
Kimball, Dr. Suzette
    Opening Statement............................................     5
    Written Testimony............................................     7
    Response to Question from Senator Manchin....................    71
    Responses to Questions for the Record........................   400
The Minerals Science and Information Coalition
    Statement for the Record.....................................   433
Murkowski, Hon. Lisa
    Opening Statement............................................     1
S. 883...........................................................   370
Silberglitt, Dr. Richard
    Opening Statement............................................    47
    Written Testimony............................................    49
    Responses to Questions for the Record........................   412

 
           S. 883, THE AMERICAN MINERAL SECURITY ACT OF 2015

                              ----------                              


                         TUESDAY, MAY 12, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. We will call to order the 
Energy Committee hearing. We are here to hear testimony on S. 
883, the American Mineral Security Act of 2015. It is nice to 
be able to welcome everyone to the Committee here this morning.
    This is an important topic, the mineral security of our 
nation which directly affects everything from our economic 
competitiveness to our national security. This is the third 
Congress now that I have introduced legislation on this 
subject. I think this is the best version yet, but I also 
believe that passage of this legislation is probably more 
important now than ever.
    I said it before and I will say it again, I think we have a 
real problem on our hands as a result of our nation's 
borderline insidious reliance on mineral imports. And it is not 
just the rare earth elements.
    60 Minutes had a feature on this some weeks ago. The 
reality is the United States now depends on many other nations 
for a vast array of minerals, metals, and materials, and we 
have got the numbers to back it up.
    In 1978 the USGS reported that the United States was 
importing at least 50 percent of our supply of 25 minerals and 
100 percent of seven of them. According to the latest figures, 
that dependence is now far deeper. In 2014 we imported at least 
50 percent of 43 different minerals, including 100 percent of 
19 of them.
    Electric vehicles, solar cells, advanced defense systems, 
you can almost name the technology, almost anything you can 
find in modern society, and then you can go look up who we 
import at least some of the raw materials from.
    Our foreign dependence is difficult enough, but the 
concentration of that supply presents additional challenges. 
Our minerals often come from a handful of countries that are 
less than stable or who might be willing to cut off our supply 
just to serve their own purposes or meet their own needs.
    Rare earth elements are, again, probably the best example 
of this. It is true that our production has picked up thanks to 
Molycorp out in California, but China still produced 86 percent 
of the world's supply in 2014 and close to 60 percent of our 
supply was imported.
    When I look at our foreign mineral dependence and where 
those minerals are coming from, I see reason after reason to be 
seriously concerned. It is not hard to foresee a day of 
reckoning when this will become real for all of us--when we 
simply cannot acquire a mineral or when the market for a 
mineral changes so dramatically that entire industries are 
affected.
    I am glad the Office of Science and Technology Policy is 
taking up our idea for critical minerals designations. It is 
good to see more attention being paid at high levels of 
Government, but executive agencies are not as coordinated as 
they need to be and they do not have all of the statutory 
authorities needed to make lasting progress on this issue.
    So once again I have offered a broad bill to rebuild our 
mineral supply chain. I do not think that there is any 
substitute for legislation.
    When it comes to permitting delays for new mines, our 
nation is still among the worst in the world. We are stumbling 
out of the gate, right at the very start of the supply chain. 
We really never catch up, and it is our own fault.
    When we decide that a mineral is critical, we should survey 
our lands to determine the extent of our resource base so we 
know what we can produce right here at home. We should keep 
working on alternatives, efficiency, and recycling options for 
the minerals that our nation does not have in significant 
abundance. I think that is a very important part of our 
discussion here this morning--once we know or we think we know 
what we have, again, looking to what alternatives might be 
reasonable and recycling options are important.
    We should build out a forecasting capability to provide a 
better understanding of mineral-related trends and an early 
warning when problems arise.
    We also need to ensure a qualified work force. The United 
States, we know, is down to just a handful of mining schools. A 
large share of their faculty will be retiring in the near 
future. We need smart, young people who want to go out into 
these fields.
    This Congress offers a perfect opportunity to bring our 
mineral's policies into the 21st century. My bill offers us 
that chance.
    I would like to thank Senator Heller and Senator Risch for 
co-sponsoring it and Secretary Moniz and his team at the 
Department of Energy for providing technical assistance to us 
as we drafted it.
    I also want to thank our panel of witnesses here today. 
Thank you, Commissioner Fogels, for joining us all the way from 
Alaska. It is a long haul for you. I look forward to the 
testimony from each of you and with that I will turn to my 
Ranking Member, Senator Cantwell.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairwoman Murkowski for 
calling this important hearing on critical minerals. I know you 
have been dedicated for many years to this subject in seeking 
to reform Federal policy on critical minerals, and this hearing 
is particularly timely as we work on bipartisan energy 
legislation in the Committee.
    The topic today reminds us how integrated the energy sector 
is with the larger economy. The U.S. energy renaissance, 
especially in the growth of clean electricity generation simply 
could not happen without critical minerals. From grid storage 
batteries to wind turbines, to catalytic converters to LED 
lights: critical minerals including rare earth metals make up 
the big chunk of clean energy.
    According to the International Renewable Energy Agency 
there are about 625,000 clean energy jobs in the United States. 
The independent business group, Environmental Entrepreneurs, 
has found that clean energy projects have led to over 230,000 
job announcements in the last three years. Every one of those 
jobs in our new economy has some ties to the mineral supply 
chain.
    The problem of rare earth metals being hoarded by China 
remains a pressing problem for our clean energy economy and our 
national security. It was only a few years ago that China cut 
its rare earth export quota by 72 percent. When 97 percent of 
the rare earth metals are produced in China, this amounts to a 
potentially serious challenge.
    Since 2009 the United States has been forced to file trade 
complaints over China's trade restrictions of minerals 
including bauxite, magnesium, zinc, tungsten and well, 
something I cannot pronounce.
    Mr. Conger. Mendelevium.
    Senator Cantwell. Thank you. Would you say that again?
    Mr. Conger. Mendelevium.
    Senator Cantwell. Yes, mendelevium.
    The Chairman. Mendelevium.
    Senator Cantwell. Mendelevium. [Laughter.]
    Mendelevium. Thank you.
    Only at the very last moment, after stretching out the 
dispute for years, did China comply with trade obligations 
under the World Trade Organization.
    In 2010, the European Commission went through an exercise 
similar to the one outlined in the Chairman's bill which 
proposes that U.S. Geological Survey establish a 
``criticality'' threshold for various minerals. This is an 
important step, but I think it is also key to recognize the 
dynamic nature of these supply chains. As new technologies in 
manufacturing processes alter these dynamics, the concept of 
``criticality'' similarly shifts and the market will quite 
often generate its own solutions. So getting this combination 
right between the public and the private sector initiatives is 
very important.
    In addition to pressing for stronger trade enforcement 
action to protect our supply chain, we could also do more to 
innovate here at home. If we can accelerate the development 
cycle for new materials, industry will be better able to 
navigate around the emerging criticalities whether real or 
perceived.
    This is part of the important work being done by the 
Department of Energy Critical Materials HUB. Headquartered at 
the Ames Laboratory in Iowa, the HUB brings together a number 
of preeminent institutions in the United States, including 
Idaho and Oak Ridge National Labs and the Colorado School of 
Mines.
    Recycling is another important component of the strategy, 
and I think we are going to hear from you, Dr. Silberglitt. 
Your testimony explains an example of tungsten well. I was 
struck by the fact that between 2010 and 2011, U.S. 
manufacturers reduced imports of this product by one third 
through recycling efforts. I will look forward to learning more 
about similar opportunities.
    I am pleased that the introduced version of the 
Chairwoman's bill maintains language about alternatives to 
critical minerals and workforce needs, as she just mentioned, 
because this is also very important.
    The core function in the bill before us today, establishes 
and maintains a critical minerals list, which Dr. Kimball's 
agency, the USGS, would be responsible for. I look forward to 
hearing what USGS is able to do on the critical minerals with 
existing authority.
    Finally, while I have noted many worthy objectives in the 
American Mineral Security Act, I continue to believe that we 
need to do a better job overall of addressing our hard rock 
mining in the United States. According to the Forest Service, 
there are nearly 2,000 abandoned mines in my state of 
Washington, alone, and I believe we should create a 21st 
century hard rock mining program.
    We should tighten reclamation standards and establish 
royalty payments like other areas of our natural resources. I 
also want to make sure that we are moving this whole area of 
critical resources forward in a strategic way.
    Again, thank you for holding this important hearing, 
Chairman Murkowski. I look forward to hearing our witnesses 
today and asking them questions.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Let's go to our witnesses here this morning.
    We will start by welcoming Dr. Suzette Kimball. Dr. Kimball 
is the Acting Director at the U.S. Geological Survey. Welcome 
to you this morning.
    She will be followed by the Deputy Commissioner Ed Fogels 
from the Office of the Commissioner of the Alaska Department of 
Natural Resources. Again, thank you for making the trek.
    Next we have Vice Admiral Kevin Cosgriff, President and CEO 
of the National Electrical Manufacturers Association.
    Mr. Harry Conger, Red Conger, President of Freeport-McMoRan 
Americas on behalf of the National Mining Association.
    Wrapping up the panel will be Dr. Richard Silberglitt, who 
is the Senior Physical Scientist at the RAND Corporation.
    Again, to each of you, welcome to the Committee this 
morning.
    Dr. Kimball, we will begin with you for five minutes of 
comments. Your full written statement will be included as part 
of the record. We will just go down the line, and then we will 
ask our series of questions.
    Dr. Kimball, welcome and we appreciate your leadership at 
USGS.

    STATEMENT OF DR. SUZETTE KIMBALL, ACTING DIRECTOR, U.S. 
       GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Kimball. Good morning Chairman Murkowski, Ranking 
Member Cantwell and members of the Committee. Thank you for the 
opportunity to discuss the American Minerals Security Act of 
2015.
    This bill directs the Secretaries of the Interior and 
Energy to perform a number of activities intended to support 
and enhance the nation's critical mineral supply chain 
beginning with developing a methodology to determine which 
minerals are critical to the nation's economy.
    The Department of the Interior supports the goal of 
facilitating the development of critical minerals in an 
environmentally responsible manner. The activities directed by 
the bill would require resources and also would need to compete 
for funding with other priorities.
    The U.S. Geological Survey, USGS, is responsible for 
conducting research and collecting data on a wide variety of 
mineral resources. Studies include how and where deposits are 
formed, the interactions of minerals within the environment and 
information to document current production and consumption of 
about 100 mineral commodities within the United States and 
around the world. This full spectrum of mineral resource 
science allows for a comprehensive understanding of the 
complete life cycle of mineral resources and materials. That is 
resource formation, discovery, production, consumption, use, 
recycling and reuse and allows for an understanding of 
environmental issues of concern throughout the life cycle.
    The Bureau of Land Management, BLM, administers over 245 
million surface acres of public land primarily located in the 
12 Western states including Alaska as well as 700 million acres 
of subsurface mineral estate throughout the nation.
    The BLM manages mineral development under a number of 
different authorities. Each of these authorities along with BLM 
regulations and guidance provides a legal framework for the 
development of minerals including critical minerals on federal 
and Indian lands. The global demand for critical mineral 
commodities is on the rise with increasing applications in 
consumer products, computers, automobiles, aircraft and other 
advanced technologies.
    To better understand potential sources of critical mineral 
commodities the USGS has completed studies of known domestic 
and global rare earth reserves, resources and uses which 
summarized basic geologic facts and materials flow issue 
related to rare earth element resources, one type of critical 
mineral.
    Other USGS studies analyze world trade and supply chains 
for other critical minerals including lithium, platinum group 
metals and tantalum.
    In 2014 the United States was 100 percent dependent on 
foreign suppliers for 19 mineral commodities and more than 50 
percent dependent on foreign sources for an additional 24 
mineral commodities.
    In 2008 a National Research Council Committee, funded 
largely by the USGS, developed a criticality matrix that 
combines supply risk with importance of use as a first step 
toward determining which mineral commodities are essential to 
the nation's economic and national security. This has been 
updated by subsequent studies and ongoing work by the critical 
and strategic minerals supply chain interagency subcommittee of 
the National Science and Technology Council which is co-chaired 
by the USGS on behalf of the Department of Interior.
    S. 883 directs the Secretary of the Interior through the 
Director of the USGS to perform a number of actions that build 
on current USGS activities and capabilities including the 
recent rare earth's inventory. It also directs the BLM to 
improve the quality and timeliness of decisions regarding 
environmentally responsible development of critical material--
minerals on Federal lands.
    I appreciate the interest this Committee has shown on this 
important issue, and we look forward to working with you as 
this bill moves forward.
    The Department maintains a workforce of geoscientists with 
expertise in critical minerals and materials. The Department 
continuously collects, analyzes and disseminates data and 
information on domestic and global rare earth and other 
critical mineral reserves and resources on their production, 
consumption and use. The Department, through the USGS, stands 
ready to fulfill its role as the Federal provider of unbiased 
research on known mineral resources, the assessment of 
undiscovered mineral resources and information on domestic and 
global production and consumption of mineral resources for use 
in global critical mineral supply chain analysis.
    The BLM is committed to implementing efficiencies for the 
environmentally responsible development of critical minerals on 
Federal lands.
    Thank you very much for the opportunity to present the 
views of the Department on S. 883, and I look forward to your 
questions.
    Thank you.
    [The prepared statement of Dr. Kimball follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    The Chairman. Thank you, Dr. Kimball.
    Deputy Commissioner Fogels, welcome.

STATEMENT OF ED FOGELS, DEPUTY COMMISSIONER, ALASKA DEPARTMENT 
                      OF NATURAL RESOURCES

    Mr. Fogels. Thank you, Chairwoman Murkowski, Ranking Member 
Cantwell and the honorable members of the Senate Committee on 
Energy and Natural Resources.
    My name is Ed Fogels, and I'm Deputy Commissioner of the 
Alaska Department of Natural Resources. On behalf of Governor 
Bill Walker, thank you for this opportunity to testify in 
strong support of the American Minerals Security Act of 2015.
    I've also been entrusted by the 26 member states of the 
Interstate Mining Compact Commission to convey their strong 
support for Senate bill 883 to the committee and to express 
their gratitude for your leadership in this area.
    Senate bill 883 identifies several important goals for the 
Federal Government related to strategic and critical minerals. 
We strongly endorse all of these goals.
    The USGS has found that as of 2014 the United States relied 
on imports for almost all of the 63 identified strategic and 
critical minerals. Furthermore our reliance on imports is 
growing as is our need for these minerals.
    Our overreliance on imported minerals, however, is 
certainly not due to an absence of resource potential. In fact 
many U.S. regions contain significant potential for strategic 
and critical minerals. With the reforms outlined in Senate bill 
883, this potential in Alaska and the other IMC member states 
can be explored.
    The State of Alaska is blessed with vast mineral potential 
on its lands. Based on USGS estimates if Alaska were a country 
it would be in the top ten in the world for coal, copper, lead, 
gold, zinc and silver. In addition, Alaska has more than 70 
known occurrences of rare earth elements and multiple 
occurrences of other strategic and critical minerals.
    Alaska has two exciting projects currently in pre-
permitting. The Graphite One deposit is the largest graphite 
deposit in the U.S., and the Bokan Mountain project contains 
significant amounts of the heavy or more valuable rare earth 
elements.
    The State of Alaska has increased its efforts to 
incentivize and promote the development of strategic minerals 
in Alaska. I'd like to briefly touch on three of these lines of 
effort.
    First, my department, the Division of Geologic and 
Geophysical Surveys, has embarked on a program to better 
characterize Alaska's mineral endowment. Over the last several 
years we have mapped a total of 7.7 million acres, an area 
about one-third the size of the Commonwealth of Virginia. In 
addition we have obtained modern geochemical analysis of nearly 
10,000 archived and new samples and much of this geochemical 
work has been in cooperation with the USGS.
    We have been working to make sure this data is readily 
available to governments, stakeholders and the public. To this 
end we have built a new geologic materials center in Alaska 
which contains samples representing over 14,000,000 feet of oil 
and gas drilling, 300,000 feet of core drilling for mineral 
projects and over 200,000 surface samples.
    Senate bill 883 will greatly enhance and support these 
types of efforts and initiatives on both state and Federal 
lands.
    Second, Federal partnerships have been critical to the 
success of our mapping efforts. These include the National 
Cooperative Geologic Mapping Program, the National Geological 
and Geophysical Data and Preservation Program. We have also 
partnered with the private sector and Alaska native 
corporations to leverage mapping resources. We believe that 
Senate bill 883 will encourage these kinds of partnerships.
    Third, DNR has pursued permitting reform to make our 
processes more timely, predictable and efficient.
    Senate bill 883 lays the framework for a Federal analog.
    Here are some of our specific initiatives.
    We are working hard to improve the efficiency of our day to 
day permitting processes, and we have seen great success and 
have greatly reduced our permitting backlogs.
    We have also developed a program for health impact 
assessments to ensure we can evaluate the potential impacts to 
human health, of our communities, both negative and positive, 
from development projects.
    We have been looking for ways the state can help improve 
the permitting regime for Clean Water Act, Section 404 Wetlands 
Authorizations in our state. And we are looking for ways to 
increase public participation in our permitting process 
especially from local communities.
    A cornerstone of Alaska's process which could assist the 
Federal agencies to accomplish the objectives of Senate bill 
883 is our large mine permitting team approach for mining 
projects.
    This team-based approach, to our knowledge, is unique in 
the nation. Applicants can voluntarily enter into an agreement 
with the state to get a project coordinator who tracks every 
permit for a project. The coordinator serves as a liaison 
between the applicant and all of the relevant agencies and the 
public to provide a single, efficient point of contact.
    The State of Alaska has long felt that the Federal 
counterpart to the state coordinator would vastly improve the 
NEPA process.
    We believe that Alaska's efforts to date and those of our 
other IMCC states can be instructive of how this effort might 
work on a national scale, and we will continue to be available 
to share the lessons we have learned.
    Thank you again for the opportunity to testify before this 
Committee, and I will be happy to answer any questions.
    [The prepared statement of Mr. Fogels follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
    The Chairman. Thank you, Commissioner Fogels.
    Vice Admiral Cosgriff, welcome.

  STATEMENT OF VICE ADMIRAL KEVIN J. COSGRIFF, USN, RETIRED, 
     PRESIDENT AND CEO, NATIONAL ELECTRICAL MANUFACTURERS 
                          ASSOCIATION

    Admiral Cosgriff. Thank you, Chairman Murkowski, Ranking 
Member Cantwell, members of the Committee.
    I'm Kevin Cosgriff. I'm the President and CEO of the 
National Electrical Manufacturers Association. We represent 
some 400 electrical equipment and medical imaging technology 
companies across the United States, Canada and Mexico. Our 
combined industries account for more than 400,000 American 
jobs, some 7,000 facilities across the U.S. and domestic 
production that exceeds $117 billion per year.
    We'd like to think that our industry is at the very 
forefront of producing safe, reliable, resilient and efficient 
electrical energy, useable by customers and consumers at all 
levels.
    So we'd like to thank you for the opportunity to provide 
comments in support of Senate 883, the American Mineral 
Security Act.
    Challenging supply conditions and corresponding volatile 
prices of basic mineral inputs can, as you imagine, have 
significant challenge effects for the U.S. electro-industry, as 
we call our companies, including in sectors such as lighting, 
electric motors, energy storage, superconducting materials and 
medical imaging. Likewise risks exist in closely related 
electric intensive businesses including wind and solar 
electricity generation and things like hybrid and electric 
vehicles.
    Importantly, while in many cases only small amounts of 
specific mineral or mineral derivatives may be present in a 
manufactured component, its presence may be the key performance 
variable and in some cases the key efficiency variable as in 
lighting.
    When NEMA surveyed our member companies several years ago 
about the importance of minerals to their products, the results 
were insightful. In addition to well known usage in electro-
industry of elements such as copper, tin, increasingly lithium, 
we found that many of the so-called rare earth elements are 
being used by our companies in products they manufacture or 
have under development for the market.
    For example, fluorescent and solid state lighting, highly 
efficient permanent magnet electric motors and magnetic 
resonance imaging units utilize these materials.
    Consequently we find the approach taken in S. 883 
contributory to improving the prospects that the U.S. electro-
industry companies will have access to the minerals and the 
related information they'll need to be globally competitive in 
the future. And I would add to that in addition, the value of 
having qualified and work ready individuals to work in these 
industries.
    At the end of the day for us this legislation is about the 
Government enabling U.S. manufacturers to compete fairly into 
the future because it will have access to the information, the 
minerals and the other resources it needs to conduct its 
business.
    So, thank you again for this opportunity to provide these 
brief remarks in support of the American Mineral Security Act. 
I look forward to working with the Committee in the days ahead 
as you move this bill forward.
    Thank you.
    [The prepared statement of Admiral Cosgriff follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    The Chairman. Thank you, Admiral.
    Mr. Conger, welcome.

STATEMENT OF HARRY ``RED'' CONGER, PRESIDENT, FREEPORT-MCMORAN 
                            AMERICAS

    Mr. Conger. Thank you, Chairwoman Murkowski, members of the 
Committee.
    My name is Red Conger. I'm President of Freeport-McMoRan 
Americas. I'm testifying today on behalf of the National Mining 
Association. NMA is the national trade association representing 
the producers of most of the nation's coal, metals, industrial 
and agricultural minerals, manufacturers of mining and mineral 
processing machinery, equipment and supplies as well as 
engineering and consulting firms, financial institutions and 
other firms serving the mining industry.
    Today I'm testifying in support of S. 883, the American 
Mineral Security Act of 2015. I want to thank Chairwoman 
Murkowski for her leadership in introducing legislation to 
address a key obstacle for the country's economic growth and 
global competitiveness. A slow and inefficient permitting 
process for mines that produce the minerals essential for our 
basic industries, technology, national defense and the products 
made here in America.
    Freeport-McMoRan's U.S. employees include 8,500 workers in 
Arizona, 1,600 in New Mexico and 950 in Colorado. They produce 
copper, mendelevium and those things that allow Americans to 
drive safer cars on better roads and bridges, use laptops and 
smart phones and generally enjoy a high quality of life.
    Continued growth and demand for minerals and metals is key 
as we see global population growth, rapid industrialization and 
urbanization in the developing world and a rising global middle 
class are all driving demand for metals. Most of this growth 
will occur in the developing world where per capita consumption 
rates of energy and mineral commodities are just a fraction of 
what they are in the developed countries. Demand for minerals 
is also increasing as new frontier technologies require a wider 
range of minerals and materials.
    For example, a modern computer chip contains more than half 
the elements in the Periodic Table. And even though they may be 
present in various small amounts, each is essential to function 
and the performance of that chip.
    All of these trends point to sustained growth and global 
demand and increased competition for mineral resources. As the 
resource competition grows fiercer, stable and reliable mineral 
supply chains will become more critical here in the United 
States. Mining's contribution to sustainable economic growth is 
important in recognizing the connection between minerals and 
economic growth and have developed strategies to ensure access 
to the minerals that form the building blocks of their 
economies and help them compete globally.
    The European Union's Raw Materials Initiative is designed 
to ensure a sustainable supply of raw materials. A balanced 
policy incentivizes and removes obstacles to new mining 
activities to support the availability of the metals and 
minerals for the European economy. As the world's largest 
consumer of many mineral commodities including copper, zinc and 
iron ore, China is giving special attention to its resource 
security by making global investments to ensure access to 
supply.
    When we turn to the U.S. however, we see a lack of urgency. 
The U.S. is blessed with a world-class mineral resource base 
with an estimated value of $6.2 trillion. According to the U.S. 
Geological Survey when it comes to copper, silver, zinc and 
other key mineral commodities what is left to be discovered in 
the U.S. is almost as much as what has already been found.
    Frankly I'm even more optimistic than the USGS. My 
experience over my 38-year career suggests we will exceed the 
USGS predictions in discovering those minerals here at home.
    However since the Mining and Minerals Policy Act of 1970, 
the U.S. has struggled with establishing effective policies to 
foster and encourage private enterprise and the development of 
economically sound and stable domestic mining minerals, metals 
and mineral reclamation industries. The lack of enabling 
domestic policies carries consequences for the competitiveness 
of downstream industries that depend upon reliable supply 
chains. Our nation's import dependence for key mineral 
commodities has doubled over the past two decades.
    Much of our domestic mineral resources remain locked 
beneath our feet by an outdated and inefficient mining 
permitting system plagued by unnecessary delays and 
redundancies at the local, state and Federal levels. NMA urges 
Congress to work together on enabling policies that ensure 
timely and responsible access to U.S. mineral and metal 
resources. If we do not and become increasingly marginalized as 
a supplier of these essential resources, the consequences are 
severe for our nation's global competitiveness.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Conger follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    The Chairman. Thank you, Mr. Conger.
    Finally Dr. Silberglitt, welcome.

     STATEMENT OF DR. RICHARD SILBERGLITT, SENIOR PHYSICAL 
                  SCIENTIST, RAND CORPORATION

    Dr. Silberglitt. Chairman Murkowski, Ranking Member 
Cantwell and distinguished members of the Committee, thank you 
for inviting me to testify this morning. My remarks will be 
based on a 2013 RAND study for the National Intelligence 
Council.
    I'd like first to define critical material. Although the 
United States has extensive mineral resources and is a leading 
global materials producer, we depend on imports for many 
materials that are critical inputs to manufacturing. The United 
States Geological Survey Minerals Commodity Summary reports 
that more than 20 materials that are critical inputs to U.S. 
manufacturing are imported, most at a level greater than 50 
percent. These are the critical materials to which I refer.
    Many of these critical materials are imported from 
countries that dominate mining and processing, often with 
greater than 50 percent of global production. Such cases U.S. 
manufacturers are vulnerable to export restrictions that limit 
their access to these materials and that can result in two tier 
pricing in which manufacturers in the exporting country has 
access to materials at lower prices than those charged for 
exports. This damage is the international competitiveness of 
U.S. manufacturers and creates pressure to move manufacturing 
away from the U.S. and into the producing country.
    The dominant producer of greatest concern is China with 
more than 50 percent of global production of 11 different 
critical materials. China built its dominant position with a 
large resource base, a long term emphasis on mineral production 
and the ability to produce raw materials at a lower cost 
because of its lax environmental and occupational standards.
    China was once viewed as a reliable, low cost materials 
supplier. However, in the past decade China ramped up export 
restrictions that resulted in distorted markets for these 
materials placing our manufacturers into an uneven global 
competition with Chinese manufacturers who had access to 
critical materials at lower prices.
    The United States and its allies successfully challenged 
these policies before the World Trade Organization. After 
exhausting all allowed time to comply, China finally eliminated 
export quotas and some export duties. While this is welcome, it 
remains to be seen whether China will find other ways to 
provide its manufacturers with competitive advantages based on 
its position as a dominant producers.
    What can be done to mitigate these critical materials 
risks?
    The RAND report recommended two types of actions. Those 
that can increase resiliency to supply disruptions or market 
distortions and those that can provide early warning of 
developing problems with concentration of production.
    Concerning resiliency the most effective actions will 
encourage the operation of mines in several different 
countries. Such diversification is already beginning to take 
place; however, the uncertainty created by these highly 
concentrated markets must be overcome by actions at the local, 
national and regional and global levels to create a favorable 
and sustainable climate for the investments and time needed to 
bring diversified supplies into place. Over the long term 
actions to increase resiliency include the development of new 
and more efficient methods of extraction, processing and 
manufacturing, increased recovery from waste and scrap and 
research and development of alternative materials and new 
product designs.
    Concerning early warning, how might we recognize a 
developing pattern such as an increasing concentration of 
production, export restrictions or two tier pricing before it 
creates harmful market distortions? The benchmarking and market 
activity with diversified commodity markets provides a guide. 
If a critical materials producer seeks a deal that the United 
States Department of Justice would view in a commodity market 
as presumed likely to enhance market power that should be a red 
flag. When such situations occur international coordination and 
cooperation could potentially prevent them from reaching a 
level of concern that led to the WTO disputes mentioned 
previously.
    While as an independent and non-partisan organization RAND 
does not take any position on pending legislation, I'd like to 
note the relation some aspects of S. 883 to our recommended 
actions.
    S. 883 actions and requirements expedite permitting related 
to our recommended action to diversify production. The section 
on recycling efficiency and alternatives relates to our 
recommended actions to increase resiliency over the long term. 
The section on analysis and forecasting relates to our 
recommended action and foresight of developing problems and 
could provide the data for the type of benchmarking against 
diversified commodity markets that we recommend.
    Thank you for inviting me to testify. This concludes my 
formal remarks. I'd be pleased to answer any questions that you 
may have.
    [The prepared statement of Dr. Silberglitt follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    The Chairman. Thank you, Dr. Silberglitt. I appreciate your 
testimony here. And thank you all for being with us this 
morning.
    Dr. Kimball, let me begin with you.
    Both in your written testimony and in your written 
statement, you did not come right out and embrace Senate bill 
883. Your written testimony provides that the Department of the 
Interior, ``supports the goal of facilitating the development 
of critical minerals in an environmentally responsible 
manner.''
    We had an opportunity last year to have Dr. Meinert of USGS 
testify that he was, ``thrilled and delighted'' to see our 
critical minerals legislation. Around here we always like that 
warm embrace of legislation.
    So a yes or no answer from you, please. Do you think this 
legislation furthers the goal of facilitating the development 
of critical minerals in an environmentally responsible manner 
and increasing the mineral security of the United States?
    Dr. Kimball. Thank you, Senator.
    Well, Dr. Meinert is here with me today, and I can vouch 
for the fact that he still is thrilled and delighted.
    The Chairman. Good. [Laughter.]
    Dr. Kimball. In terms of a one word answer is yes, we do 
think that the goals embraced in Senate bill 883 will advance 
those priorities. And we really commend you and the Committee 
for elevating this very important issue.
    The Chairman. Well, I appreciate that, and know that we 
want to work with you on this.
    Let me ask about this Mineral Commodities Summaries Report 
that you do each year. We have all agreed across the table here 
that our reliance on other countries in terms of our mineral 
needs is increasing, but when USGS reports that we are seeing 
this increasing foreign mineral dependence, what happens? What 
happens next?
    If we are seeing this matrix go up do we have a concerted 
effort within the agency, anywhere within the Federal 
Government really, to reduce or then minimize the imports of 
those minerals where we are seeing this increased reliance?
    Dr. Kimball. With the USGS Mineral Commodities Report 
provides essential information that can inform national 
economic policy and trade considerations. The USGS itself does 
not enter into those kinds of policy decisions which factor 
into account economies, factor into account trade 
considerations and industry capabilities. And so once we----
    The Chairman. So you put the summary out there, but not 
much further beyond that. Is that correct?
    Dr. Kimball. That is correct.
    The Chairman. Okay.
    Let me ask you about permitting reform, because we have 
heard from many of you here at the table that permitting reform 
must be addressed. It takes an average of seven to ten years to 
permit a new mine here in this country, and one leading 
consultancy has found that permitting delays are the most 
significant risk to mining projects here in this country.
    Mr. Fogels, you mentioned a couple specifics in the State 
of Alaska where we have made some headway. I think you refer to 
the large project coordinator where you have a liaison between 
the applicant and all the agencies that are coordinating it 
that way, and we have seen improvements at the state level.
    What do you hear at the Federal level though, in contrast 
to what you are doing at the state level?
    Then a follow-on question to you, Mr. Conger, is if we were 
to adopt this type of an approach that the State of Alaska has 
with this liaison, would this help us with the Federal 
permitting process?
    Mr. Fogels.
    Mr. Fogels. Thank you, Senator.
    Yes, as I said in my testimony and further elaborated on in 
my written testimony, we have developed a fairly unique 
process. We put together our large mine team that's been in 
existence for probably close to 20 years now. Basically how it 
works is an applicant will voluntarily decide to sign up with 
the State of Alaska to get a project coordinator assigned to a 
specific project. This isn't limited to just mining projects, 
but it did start in the mining sector. And then that 
coordinator will essentially shepherd the process, will track 
every single permit, state, Federal, local, trying to bring all 
the parties to the table and be that efficient, single point of 
contact.
    I think, most importantly, it gives the public a real 
holistic way to look at the process. It makes it easier for the 
public to follow along. The process also has a strong cost 
recovery component where the applicant essentially pays for 
almost all, if not all, the state permitting expenses. And 
again, this is just for the state side that that cost recovery 
is implemented. We have a statute that gives the Department of 
Natural Resources that authority to coordinate state agencies. 
It has enabled us to build a team with expertise. The mining 
sector is very complicated. To permit a mine is a very 
complicated endeavor, so we have this built up expertise.
    On the Federal side, they don't really have a counterpart 
to our coordinator, and we've long dreamed that someday the 
Federal agencies should contemplate something similar.
    We understand that it's a little more difficult to do 
something like that on the Federal side, with a Federal family, 
but we still think there's room for the Federal agencies to 
somehow coordinate a little bit better. I think the Canadian 
National Government has a major projects office and that may be 
something to look at.
    But I think there's room----
    The Chairman. Well, I appreciate that.
    My time is up. Mr. Conger, I wanted you to just very 
briefly comment if you think that Federal application of what 
we have seen at the state level would help us with a more 
expedited or more efficient permitting process?
    Mr. Conger. Chairwoman Murkowski, it would be very helpful.
    The Chairman. Okay, good. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I have a couple of different questions.
    Dr. Kimball, I just wanted to know from you, what do you 
think you are currently lacking right now to ensure that there 
is a stable supply chain of these critical minerals for our 
economy?
    Vice Admiral Cosgriff, I wanted to ask you about what you 
have seen that are the best research partnerships with the 
Department of Energy, again, to lessen the supply chain 
challenges and disruption.
    Dr. Silberglitt, I wanted to ask you about the examples of 
using recycling as alternatives in the supply chain.
    Obviously this is all about these industries that have to 
resource and keep this development going, so I just wanted to 
really hone in on that supply chain with those questions.
    Dr. Kimball. Thank you, Senator Cantwell.
    We believe we actually have the adequate existing 
authorities to undertake the kinds of assessments and resource 
determinations around the critical minerals supply chain 
issues. And in fact, life cycle analysis is a fundamental part 
of our strategic plan for mineral resources program.
    Enabling the USGS to be able to provide the kind of 
information on the time frame identified, within the time 
frames identified, in Senate 883 will be a challenge under our 
current funding constraints.
    Senator Cantwell. Because of the complexity of that or?
    Dr. Kimball. Not so much because of the complexity, but 
because of the amount of work that it will take and the number 
of individuals that will be required to complete those 
assessments in the time frames that are identified.
    Senator Cantwell. Don't we already have a report that was 
done? Right? The DOE report, Critical Materials Strategy?
    Dr. Kimball. That's the Department of Energy document.
    Senator Cantwell. We do share, right?
    Dr. Kimball. Yes, we do. [Laughter.]
    And actually the Department of Interior and the Department 
of Energy work very, very closely together on these issues.
    The Department of Energy is focused more on technology and 
technological development associated with various industrial 
applications, whereas we're involved more with understanding 
the distribution of the resource both discovered and 
undiscovered.
    Senator Cantwell. Research partnerships, Admiral Cosgriff?
    Admiral Cosgriff. Thank you, Senator.
    Well the Critical Minerals Institute comes to mind in the 
context of this hearing and what they're working on. And in 
addition to that, which we welcome, we also have affiliations 
or companies have affiliations with universities. The larger 
ones are in-house technologists and they're always pursuing 
technology as a competitive advantage when they can find 
something the other guys don't have yet.
    So all of this R and D is going to be important across the 
entire life of these minerals from extraction I'll defer to the 
gentleman on my left for that, but all the way through their 
life, their application and the manufacturing process and then 
the sunset of that product at the end of life.
    A good example of that is what NEMA members are doing with 
lighting in a number of states where we recover lights, extract 
minerals that would be environmentally dangerous and dispose of 
it responsibly.
    Senator Cantwell. Doctor, on the recycling aspect of the 
supply chain?
    Dr. Silberglitt. Thank you, Senator.
    Recycling is certainly very important, and it's certainly 
market driven today.
    The case study of tungsten, that you quoted in your 
remarks, indicates that one can respond very rapidly, in fact, 
in some industries. The tungsten manufacturer that we talked to 
pointed out to us that they were already trying to substitute 
for tungsten as well as they could in cutting tools and using 
as little as possible and using it as efficiently as possible, 
but then with the problems with the supply chain they were able 
to start to recycle scrap and waste at an even greater rate.
    The USGS had done a study several years before, Dr. Kim 
Shed, and showed that the supply chain for tungsten has places 
where you can recycle. And so I agree that we should recycle as 
much as possible. It's a very good alternative.
    Senator Cantwell. Thank you.
    The Chairman. Senator Capito.
    Senator Capito. Thank you, Madam Chair, and thank you to 
the panel. I am going to start with Mr. Conger, please.
    Most of what we have heard in the panel discussion today 
has been in support of S. 883 for the reason I am going to ask 
in that the permitting process for new mines is very, very 
difficult to navigate. Generally speaking, you mentioned that 
you have been in this business for several decades.
    Would you say how the United States compares to other 
countries, and we touched on this a little bit, when it comes 
to permitting timelines for new mines?
    Mr. Conger. Thank you, Senator.
    First of all, the standards that we use throughout the 
world are based on U.S. standards. Most of the countries in the 
rest of the world have rapidly adopted the standards for the 
quality and the veracity of the regulations.
    What we find most different is the other countries that we 
work in have specific timelines for various aspects of the 
permitting process to be completed within. And they're adequate 
time frames, two, three years, typically. A lot of public 
involvement in those so there's plenty of opportunity for 
everyone to be informed and arrive at the best, you know, 
overall outcomes for the project.
    When we work on permitting here in the United States 
there's absolutely no timeline estimates that you can make. The 
most recent property that we permitted and built from scratch 
in Arizona took 12 years to permit. And there's just, in many 
cases, no way to make--break the log jams that occur and it 
just takes a long time.
    Senator Capito. Just so I understand the semi-science of 
this and maybe, Dr. Kimball, you can answer this for me. On the 
mineral, we have heard that most of the producing and most of 
the importing is from China. Is that because we do not actually 
have the minerals here or is it what Mr. Conger was saying that 
investors and companies are not investing here because of the 
uncertainty of the regulatory issues? Do we have these minerals 
here? Could we be dominating in this field?
    Dr. Kimball. I think there's a combination of factors. In 
some cases we do not have adequate resources to meet our needs 
domestically. In other cases there are industry considerations 
in terms of practicality of extracting those resources. In some 
cases we have not completely mapped the full extent of the 
resources nationally, so we aren't able to make an assessment. 
So there are a number of factors that complicate.
    Senator Capito. Contributing on the last point that you 
made in terms of that we have not adequately mapped, is that 
because we haven't placed a great enough priority on it? Is it 
because the supply is there from other countries? How would you 
perceive that?
    Dr. Kimball. Again, there are a number of factors that 
affect that. We, in fact, have done national assessments on a 
number of minerals, critical, some identified as critical 
materials, some other metals, copper and zinc come to mind as 
ones where we have done national assessments.
    There is a timeline and a work load commitment associated 
with that. We've been very fortunate to have a very good 
working relationships with industry, with other Federal 
agencies and with the university communities, but that 
coordination to move forward in a national context is not only 
complex, but it's a very, very large work load.
    Senator Capito. Does the State of Alaska do their own 
mapping exploration? I mean, do you feel like this is a 
necessary, for us to move forward, could we do it statewide 
with the Federal, sort of, overseeing in terms of discovery?
    Mr. Fogels. Absolutely, Senator. The State of Alaska does 
do its own mapping, very heavily partnering with the Federal 
agencies such as the USGS.
    Senator Capito. Right.
    Mr. Fogels. But I should make a point that as of today we 
have mapped 17 percent of Alaska, 17 percent, at a scale that's 
suitable for mineral exploration. And the remaining unmapped 
acreage in Alaska is equal to the States of Washington, Oregon, 
California, Nevada and Arizona, combined. [Laughter.]
    Senator Capito. You could probably even stick West Virginia 
in a little corner in there and still be accurate. [Laughter.]
    Mr. Fogels. I believe so.
    Senator Capito. Let me just ask a quick question. Somebody 
might be able to answer this with a yes or no.
    My perception of these types of minerals is that they are 
very expensive to purchase and could be a very lucrative 
business if we would get together and use this law to better 
coordinate and expedite our regulatory regime here. Is that 
true? Are most of them very expensive or not? Yes?
    Mr. Conger. Senator Capito, I think there would be more 
people exploring and looking for minerals if they knew that 
they could bring it to fruition and produce them, that there's 
just a huge barrier to entry with the uncertainty of how long 
it's going to take to permit.
    Senator Capito. Okay. Thank you very much.
    Thank you.
    The Chairman. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    In 2013 I was a co-sponsor of the Chair's Critical Minerals 
Policy Act, and I believe that bill was able to strike a 
balance between supporting domestic critical mineral production 
and doing so in an environmentally responsible way.
    We need to continue, to make sure that mining activities 
which are vital to local economies are carried out in a manner 
that is consistent with protecting the public health, welfare, 
safety, our national security and the environment of the United 
States. I am not sure why these considerations got less 
attention in the legislation that has been introduced in this 
new Congress.
    Dr. Kimball, in your opinion have environmental impacts of 
extracting critical minerals lessened over the last two years?
    Dr. Kimball. Senator, I'm not qualified to answer that 
question in terms of whether or not the impacts have lessened 
due to changes in technology or industry practices.
    I can say that it's a very important issue. Mineral, any 
extractive industry development and environmental protection 
are not mutually exclusive goals. And so that a good 
understanding of the resource distribution, a good 
understanding of how technology can be applied and what the 
potential environmental impacts might be due to that extraction 
can work, those entities can work cooperatively together for an 
effective----
    Senator Franken. I think they have to. I mean, they are not 
mutually exclusive. They are intrinsically tied together.
    In our efforts to increase domestic production of critical 
minerals shouldn't we be concerned with doing it in a way that 
really pays due attention to health, safety and the security of 
communities and the environment as well? Anybody?
    Mr. Conger. Senator, if I may?
    We have the best regulatory regime in the world for those 
kinds of things, and I would submit that the minerals coming 
from China, for instance, are not being extracted with near the 
care and attention to the environment that we do here in this 
country.
    So I think the best thing for global population overall is 
for us to do it under our standards. As you said, they're 
intrinsically linked between our security interests and our 
ability to do it the best anywhere in the world.
    Senator Franken. Well in the prior version of the bill, in 
the previous Congress, it included substantial funding, about 
$15 million, for research to look at things like recycling and 
other alternatives to limit the overall environmental impacts 
of mineral extraction. I think that we should continue to lead 
the world in that. I think that is good for Americans, and I 
think we can do both, but the bill does not include any 
specific authorization for these programs. It is something that 
I would be interested in working with the Chairman on.
    Dr. Silberglitt, as you noted, rare earth metals are 
critical to the high tech sector, in the energy sector, but we 
also know that in many cases we are dependent on imports from 
China, as testimony cited. In recent years we have seen large 
price increases for these rare earth elements, and we need to 
make sure that our dependency does not harm our manufacturing 
sector.
    I know that there is a real risk when it comes to 
developing clean energy technologies. Dr. Silberglitt, can you 
talk about which particular clean energy technologies are most 
dependent on rare earth elements?
    Dr. Silberglitt. Thank you, Senator.
    The report that the Senator just held up from the 
Department of Energy goes into that in a lot of detail, and 
many of the renewable energy technologies such as wind energy 
rely--and more energy efficiency projects such as using 
substitutes for incandescent lighting, phosphors are important.
    So there are a host of new energy technologies, as the 
Department of Energy and the national labs have documented, for 
which the rare earths are very important.
    Senator Franken. Well I see my time has run out, so maybe I 
will include a couple of extra questions for the record.
    Thank you, Madam Chair.
    The Chairman. Senator Daines.
    Senator Daines. Madam Chair, thank you.
    Mr. Conger, according to recent studies metal mining in 
Montana has contributed $403 million, as this 2012 numbers in 
tax revenues and non-metal mining contributes $128 million. 
That includes $288 million of state and local taxes.
    Metal and non-metal mining has created nearly 20,000 jobs 
in Montana including 8,500 direct jobs. These are good paying 
jobs. In fact in Montana we know this balance between 
developing our natural resources with responsible environmental 
stewardship is the only option.
    As access to our state's one of a kind public lands is 
crucial to our state's tourism economy and our very way of 
life, it is critical that mining operators in Montana engage 
members of the community and responsible stewards of the 
resource.
    In fact, the Stillwater Mining Company mining only one of 
two of the platinum and palladium resources in all of North 
America, recently received BLM's hard rock mineral community 
outreach and economic security award in October of 2014. I 
visited the operation. These are great jobs. They do so much 
for the community, and this mining is occurring right in the 
backdrop of the Absaroka-Beartooth Wilderness Area. These 
miners work during the week, and they are backpacking, fishing, 
climbing mountains and hiking on the weekends. It is a great 
example of that balance that we seek.
    The question I have is I am told your company also has an 
excellent reputation for investing in the communities where its 
mines are located including partnering to foster 
sustainability. Could you tell me more about your company's 
initiatives in that area?
    Mr. Conger. Thank you, Senator Daines.
    We are certainly proud of Stillwater Mining as a member of 
the National Mining Association. So, congratulations on those 
achievements.
    At Freeport-McMoRan it is very important that the people in 
the areas where we live and work understand that the true 
benefit of having us as a neighbor verses us not being there. 
And there's no question we have an impact on the environment. 
We know that. We do a variety of things to ameliorate those 
impacts.
    But in the areas of education, health, and community 
development, we're strong supporters of local communities. We 
give generously to things that meet those criteria, education, 
health, etcetera, in the form of projects at schools, 
scholarships, infrastructure in cities and towns and things 
that make sense for us and the people where we live and work.
    Senator Daines. We have also seen, however, in Montana 
there have been some mining projects that have been burdened by 
extensive permitting processes that are keeping these job 
creating projects from moving forward, valuable investments in 
the communities.
    A couple that come to mind are the Rock Creek Mine and the 
Montanore Mine which have been undergoing extensive permit 
analysis for several years. The Montanore Mine is up in Lincoln 
County, up in the Northwest part of our state.
    When I was going to high school, Libby was a Double A high 
school. We are a Double A high school, my home town of Bozeman. 
Libby has gone from Double A to A. They are moving to Class B 
next year. That is really, I think, the story of what is going 
on with some of our communities which are dying with high 
unemployment rates and very low incomes. There has been truly 
an extensive, almost analysis by paralysis going on for several 
years on these projects.
    Could you expand more on the on ground impact that the slow 
permitting process has had for members of the National Mining 
Association?
    Mr. Conger. Senator Daines, in general you can't make a 
business plan without some kind of estimate of timing of 
investment itself of activities when, you know, when do we hire 
engineering, when do we hire construction, when do we hire 
permanent employees. And you know, the key to all of that is 
being able to have the permits to proceed.
    So when there's no surety of how that process is going to 
work and there are plenty of opportunities for it to be stalled 
and delayed, people can't count on anything. You can't.
    If this, the communities that you mentioned, their people 
would like to go to work there at those operations, but they 
don't have any idea when that might be able to take place.
    Senator Daines. As we say in Montana, we work but we also 
like to play.
    Mr. Conger. Yeah.
    Senator Daines. But if you do not have a job the only folks 
that will be playing in Montana are tourists coming from out of 
state because Montanans no longer can afford to raise their 
families there and that is why we need these jobs. Thanks for 
your comments.
    Mr. Conger. Thank you.
    The Chairman. Thank you, Senator Daines.
    Senator Hirono.
    Senator Hirono. Madam Chair, I would like you to allow 
Senator Manchin to go before me since he has a mark up to 
attend.
    The Chairman. Yes, certainly.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thank all 
of you.
    I think we all know the constraints that we have producing 
the minerals this country depends on and needs. I come from 
West Virginia, as you know, and West Virginia has been 
challenged in so many ways.
    We have consistently found better ways to do things, better 
ways to find a balance between the economy and the environment. 
There has to be a balance.
    With that being said, under the Strategic and Critical 
Minerals Stockpiling Act, the Department of Defense is 
responsible for stockpiling critical minerals. In fact, one of 
the stockpiles used to be in Point Pleasant, West Virginia. An 
unbelievable site, deep water port, both rail lines coming in, 
CXS/Norfolk Southern. And it just disappeared. GSA disposed of 
it all.
    So I would ask a question to all of you concerning our 
defense and our economy, the defense of our nation and the 
economy that we depend on and all of us live our life.
    Do you believe the United States is positioned right now 
and we have sufficient rare earth minerals to do the job that 
we need done in this country to defend it and to sustain 
economic growth that we need or have we become more reliant on 
others, the outside world? All I can speak about is I have seen 
all the other countries buying up the minerals in West 
Virginia. People do not realize, basically, our best 
metallurgical coal is being bought up by Russia and India and 
China. It continues. I am sure it continues in other hard 
rocks.
    But if you all could, just very quickly on that one, talk 
about do you believe we are in a position to defend ourselves 
from the economic and the defense that we should be by having 
strategically either control or ownership of rare earth 
minerals? We will just start right down the line. Dr. Kimball.
    Dr. Kimball. Thank you, Senator.
    Well, of course, USGS does not engage in those kinds of 
analyses, so I don't feel that we're qualified to determine 
whether or not----
    Senator Manchin. You all have not looked at the inventory? 
You have not looked at basically what we have in this country? 
Who the ownership is and what the production levels are?
    Dr. Kimball. Through our mineral commodities analyses, yes, 
we have, but we have not put that in terms of what is----
    Senator Manchin. Could you get us a report on that? I mean, 
I want to know are we dependent on other countries or do other 
countries have control of our minerals which we are dependent 
on for our economy and the defense of our nation. If you could 
get me an answer on that I would really appreciate it.
    Dr. Kimball. We'll provide information for the record. Will 
that be suitable?
    Senator Manchin. Absolutely.
    [The information referred to follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Manchin. Mr. Fogels.
    Mr. Fogels. Yes, Senator, thank you. I guess I would have 
to say no, we're not prepared to supply ourselves with what we 
need.
    Senator Manchin. You think right now that we are dependent, 
strategically, on the things that it takes for the quality of 
life we have and defending our homeland, that we cannot take 
care of ourselves right now without outside rare earth 
minerals?
    Mr. Fogels. Absolutely. I firmly believe that, but I 
believe that we have the potential to turn that around.
    Senator Manchin. Do you have any statistics on that or any 
info that can back that up basically saying that we are not in 
a position today to self-sustain or take care of ourselves?
    Mr. Fogels. I think it is out there. I think we can----
    Senator Manchin. Can you put that together for me?
    Mr. Fogels. Get it together? Sure.
    Senator Manchin. Okay. Vice Admiral.
    Admiral Cosgriff. I think what my members look for more 
than anything else is predictability. For the most part in a 
globalized market, no matter where these minerals reside, in 
the main right now it's predictable.
    But I think as----
    Senator Manchin. You think basically we have either 
ownership or control as the United States?
    Admiral Cosgriff. I think it's a predictable source of 
minerals from my company that they need in manufacturing, but I 
think as a West Coast port problem showed, as a one off example 
of how quickly disruption can riffle through the economy.
    Senator Manchin. Oh, I----
    Admiral Cosgriff. So as I am not a miner, I do not know the 
geology of this. But as a representative of manufacturers, they 
are looking for predictability and affordability in their 
supply.
    Senator Manchin. I think my question goes deeper basically 
saying that the hard challenges we have through regulatory, of 
being able to produce the rare minerals that we depend upon 
make us more dependent, that we have less control, is what I am 
trying to say. If you all have the expertise and everything, we 
have got to make sure that the people in the United States of 
America, 300 plus million, understand that we are not in a 
position to take care of ourselves either over regulations or a 
lack of inventory or dependency on countries that basically 
could shut us off in a heartbeat.
    We know what we are talking about is China, about them 
being very aggressive in the world market. Correct? Red, do you 
have any comments on this?
    Mr. Conger. Yes, Senator Manchin, thank you. In a word, no, 
we are not self-sufficient. We could be more independent.
    To be direct about your question, the National Mining 
Association will provide you with that data and that back up 
information.
    Senator Manchin. Thank you.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
    Senator Manchin. Dr. Silberglitt.
    Dr. Silberglitt. Thank you, Senator Manchin. I think the 
key words that we've heard today from my colleagues here are 
access and uncertainty and predictability. And so we have these 
world markets for materials and the rare earths are a perfect 
example of where we don't have control, where we depend on 
imports.
    And if that market were a fair marketplace and our 
companies could have access at the same price that anyone else 
would pay then, I think, we would have no problem. We don't 
have to control it ourselves, but that isn't currently the case 
as we said in our report.
    Senator Manchin. Okay. Well, I do not subscribe to throwing 
caution to the wind. I think there is a balance between the 
economy and the environment. We have a responsibility, but also 
we are very vulnerable, I think, and that is what I am 
concerned about.
    I want to thank Senator Hirono very much for allowing me to 
do this. Thank you.
    The Chairman. Thank you, Senator Manchin. I think your 
questions get right to the heart of why we want to have this 
legislation because there is a vulnerability and it is very 
real.
    So, Senator Hirono, thank you for generously letting your 
colleague precede you. Go ahead.
    Senator Hirono. Thank you, Madam Chair.
    This is a question for Vice Admiral Cosgriff. We have heard 
testimony today on the limited supply of critical minerals that 
are in products that we rely on everyday from smart phones to 
toothpaste to vehicles. As a consequence our landfills are 
filled with products containing critical minerals and looking 
at the testimony from Dr. Silberglitt that that in the tungsten 
situation the industry responded relatively quickly to 
producing through secondary production of tungsten through 
recycling, filling a need.
    So my question, Vice Admiral Cosgriff, is what percentage 
of electrical equipment containing rare earth minerals is 
recycled across your members and what are the impediments you 
see to increasing recycling rates?
    For the rest of the panel, anyone who wants to weigh in, 
what is recycling of critical minerals from the products that 
already contain these minerals feasible and what can we do at 
the Federal level to incentivize recycling of these products 
containing these minerals?
    Let's start with you, Vice Admiral Cosgriff.
    Admiral Cosgriff. Thank you, Senator. I can't give you a 
percentage of products that have critical minerals in them or 
the percentage of recycling that they are in. We will do our 
best to get----
    Senator Hirono. It is probably not very much.
    Admiral Cosgriff. Well, we will do our best to get that 
information to the Committee because I think it's a very good 
question and a very right question about the responsibility we 
all have, you know, suppliers, manufacturers and users, to make 
sure at the end of life of these products for environmental 
reasons and increasingly for other reasons, in this case the 
rarity of a key substance in that product, to do our level best 
to recover that.
    Admiral Cosgriff. I know in manufacturing we spend a lot of 
time trying to wring inefficiency out of our processes. Waste 
is an inefficiency. You wouldn't want to waste something with 
the word rare in it. So that's an important part of it.
    Likewise at the end of life teaming with consumers and 
other users we recover those materials as best we can. There 
are programs that do that. DOE incentivizes that. States do 
that. There is some research being done on that. I would 
encourage and congratulate the Committee on addressing that 
whole life cycle approach to these products or these materials.
    Senator Hirono. You say that there are already Federal 
incentives to recycling? Yes?
    Admiral Cosgriff. The ones I'm familiar with are for 
environmental reasons for recovering materials in lighting 
systems, and I will find out on the critical materials from the 
manufacturers point of view.
    [The information referred to follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    Senator Hirono. Do any of the other panelists want to weigh 
in on how feasible is it to recycle more of the products to get 
critical minerals out of these products?
    Mr. Conger. Senator Hirono.
    Senator Hirono. Yes?
    Mr. Conger. Thank you.
    Senator Hirono. Mr. Conger.
    Mr. Conger. One thing that I would point out in the case of 
copper which is well-documented. Copper has been mined and 
produced for over 4,000 years. Estimates have been made that 99 
percent of all the copper that's ever been extracted from the 
Earth's surface is still in use today and we track that 
annually. It's an integral part of the supply cycle of copper. 
Wires, you know, get--you tear down something that has copper 
wires in it, for instance, or an old motor. You take that, put 
it back into the supply chain, and that ends up constituting 
about ten percent of the total marketplace.
    So what I would point out is yes, recycling is important. 
We need to continue to encourage people to recycle and 
facilitate recycling, but it's not going to replace the growing 
demand that the world's population has for all of these things. 
It's part of it, but it's not sufficient----
    Senator Hirono. Yes.
    Mr. Conger. To not have new mines.
    Senator Hirono. I understand that, but I think recycling 
probably should/could play a bigger role in our need for these 
critical elements.
    I have another question about the Department of Energy in 
2011 and under Chair Murkowski's bill would require the DOE to 
identify and develop alternative minerals and energy 
technologies that are less reliant on minerals that could face 
supply restrictions.
    So perhaps, again, Vice Admiral Cosgriff, you can let us 
know how much progress has been made within the manufacturing 
industry on finding these alternative minerals and 
manufacturing techniques that will be less dependent on 
critical minerals? How are we progressing on that front?
    Admiral Cosgriff. Yeah, I think the thing to remember 
there, Senator, is that our companies pursue technology for 
competitive advantage, so they're always trying to find that 
special something that's going to give them a leg up.
    Pick on lighting again, in the case of LEDs, we do use 
these rare earth elements to help us tune the light to get the 
right colors, to get the right mix of colors so that white 
looks like white light, looks like white light to your eyes and 
not some off shade that drives consumers crazy.
    Right now that's the rare earth component of LEDs. In the 
future, I can't say. But it's an example of where technology 
got us to a point where we are reaping tremendous energy 
savings with these new devices. And I think it's logical to 
think that our companies will continue to pursue alternatives 
to something that's going to be expensive to source, rare earth 
elements.
    Senator Hirono. Okay.
    Thank you, Madam Chair.
    The Chairman. Senator Warren.
    Senator Warren. Thank you, Madam Chair.
    As we have discussed this morning, the innovative use of 
minerals is expanding rapidly from advanced defense technology 
to cutting edge clean energy developments. New uses are 
cropping up with increasing frequency. We depend on these 
valuable materials every day for components in phones, 
computers, roads and that means we count on having a steady 
supply of them.
    For many of these minerals we know that is not a problem. 
We know that our manufacturers and researchers will have access 
to them at reasonable prices for the foreseeable future. But 
for others, we do not have much choice except to use unreliable 
foreign sources and to accept the risks that come along with 
that.
    That is why it is so important that we invest in developing 
alternatives to critical materials and finding other ways to 
reduce our reliance on oversea suppliers.
    Northeastern University in Boston, for example, has 
conducted important research on rare earth minerals focusing on 
potential substitutes for these minerals in ultra strong 
magnets that are now used in everything from hybrid cars to 
headphones to jet engines.
    Dr. Silberglitt, given how reliant we are on importing 
critical minerals, can you explain how high quality research 
can reduce the risks associated with supply shortages and 
disruptions?
    Dr. Silberglitt. Thank you, Senator Warren. Well, research 
can reduce the risks in several ways.
    One is to reduce the amount that we use simply by using a 
material that using the same material more efficiently with a 
better product design. This is going on in the tungsten 
industry for many years, and it's accelerated because of the 
situation you describe.
    Another is, you know, to be more efficient in the way we 
actually produce these materials. Right? We talked about better 
ways to actually produce the material, to do it in a more 
environmentally sound way, to process it more efficiently, so 
that we essentially get more out of what's in the ground. 
Right?
    And another possibility is to substitute one material for 
another. I believe the research you quoted talks about using 
cerium which is a very, much more abundant and less supply 
risky material than neodymium and dysprosium which are the ones 
that are quite a bit of a problem according to the Department 
of Energy, for example.
    So there are all these different ways, and I think we need 
to, like with energy, it's not one verses another. You need 
them all. So I think we need to pursue all of those.
    Senator Warren. Good. Well that is very valuable to talk 
about the different ways in which research can be helpful in 
this area.
    Dr. Kimball, what mineral needs does our country have that 
we might be able to help address with better investments in 
research? Can you just give us an idea of that?
    Dr. Kimball. Senator, are you asking what specific minerals 
we should be pursuing?
    Senator Warren. Or general areas where we should be 
working?
    Dr. Kimball. Well, I think one of the most important things 
is really looking at the life cycle analysis of various 
minerals where we know that there is demand through industry. 
And some of those minerals are included in the list that has 
been referenced several times this morning where we do have a 
foreign dependence.
    Part of the challenges that we, as a nation, face is to not 
become too dependent on a single source for any particular 
commodity but to understand the distribution so that if there 
is disruption in those commodities that, in the supply of those 
commodities, that our needs are not put at risk. And so I think 
that's another valuable area for research.
    Senator Warren. Good. That is very important. Thank you.
    I realize that investments in high quality research cannot 
solve all our problems, but this research represents a very 
important opportunity to reduce our reliance on unreliable, 
foreign mineral sources. We can do a better job of developing 
alternatives to critical minerals, strengthen our research 
workforce and explore other ways to improve our resilience to 
supply disruptions and our nations and other research 
institutions can play a critical role in that process.
    I am pleased that the bill we are talking about today takes 
steps to address these concerns, and I look forward to working 
with the Chairman on this.
    Thank you.
    The Chairman. Thank you, Senator Warren.
    We have had a good discussion here this morning about 
understanding what it is that we have, the analysis, the 
assessments and then trying to forecast out what it is that we 
will need. How we can be more efficient in our use, how we can 
recycle, how we can find alternatives.
    I want to go back to you, Mr. Fogels, with a follow-on to 
Dr. Kimball, just in terms of the mapping.
    You have indicated that 17 percent of the State of Alaska 
has been mapped, and we have a long way to go in understanding 
what it is that we have available to us. I would imagine that 
we are in a similar situation around the country just in terms 
of having mapping and an understanding of the resource across 
the country. Obviously the more we know, the better prepared we 
are.
    How do we go about placing a priority then on mapping? We 
have had a difficult time just getting an inventory of many of 
our oil and gas resources. In my view, this falls in that same 
category.
    Is it something, and I think this goes to Senator Capito's 
point, where if the Federal Government is not doing it we rely 
on the states to do it? How do we do a better job in terms of 
the assessment?
    Mr. Fogels. Madam Chair, thank you. I mean that's a really 
good point. I think as we all know a lot of you have heard 
Alaska's financial situation at this point given the low oil 
prices probably won't let us contribute as much to our mapping 
efforts as we once have, for at least for the time being. We 
hope that----
    The Chairman. So if we do not have the mapping does that 
mean that we have investors that are just not looking at us 
because they don't know?
    Mr. Fogels. Well again, we've done a lot of really good 
work on our mapping. Already state mapping data has enabled us 
to find two significant prospects in Alaska, the Pogo gold mine 
which is producing right now and the Livengood project which is 
a fabulous project that's in pre-permitting. Both of those were 
discovered at least in part because of the state release of 
data.
    We have other projects such as the Richardson Highway area 
where a company recently staked 23,000 acres of mining claims 
based on state data. So existing state data is still driving 
investment in Alaska and will continue to do so.
    We're just looking----
    The Chairman. What about on the Federal side? If we have 17 
percent of our state lands that have been mapped, how much of 
our Federal lands have been mapped?
    Mr. Fogels. Actually I think the 17 percent figure that I 
mentioned was all of Alaska.
    The Chairman. It is, okay.
    Mr. Fogels. State, Federal and probably even private Native 
corporation lands. I don't have the actual break out, 
percentage by land ownership.
    But I mean, we definitely need to do more, and we're 
looking for innovative ways to partner with the Federal 
agencies such as the USGS to keep that rolling. And for awhile 
now anyway we'll have to rely more on the Federal agencies to 
help us with that mapping.
    The Chairman. Let me ask you, Dr. Kimball, are we giving 
sufficient priority just to the assessment and mapping in your 
view?
    Dr. Kimball. I think that we could put more effort into 
developing those baseline assessments. And as we've talked a 
lot today about how technology is driving a need for critical 
minerals, advances in scientific technology can help us with 
those assessments and mapping.
    New techniques for using hyper-spectral technology, for 
instance, which is being pioneered right now domestically in 
Alaska has the opportunity, provides us with the opportunity to 
be looking at larger areas, especially those that are 
inaccessible to the usual boots on the ground prospecting 
types.
    The Chairman. Good. Now let me ask about this early warning 
system that you referenced, Dr. Silberglitt.
    Your report contains this index that approximates the 
global concentration and production for critical raw materials. 
Can this type of an index then serve as some kind of an early 
warning system for problems related to concentration of 
production? Because it seems to me, look, this is expensive to 
produce. You have long lead times. If we can see it coming 
perhaps we can be a little more proactive here. Is that a fair 
observation?
    Dr. Silberglitt. Thank you, Senator. There are two indexes 
that we used in our report.
    One is the Herfindahl-Hirschman Index, the HHI, which is 
commonly used for commodity markets, and it shows you if you 
see that's becoming more concentrated then you see that there 
is producers that are dominating the market.
    The other, we folded into that HHI index, the World 
Governance indicators that the World Bank produces to look to 
see if the dominant producers indeed one that has a poor 
governance or that controls their market so that we need to 
worry more about that.
    I think that both of those indexes can be used if you 
benchmark them against commodity markets. So if you look at the 
changes in those indexes and you ask yourself, if I were the 
Department of Justice and this were a commodity market, would I 
worry about this?
    So yeah, that will give you some foresight. And that kind 
of benchmarking can suggest where there might be a problem 
evolving. If we had done that years ago when we saw the Chinese 
growth----
    The Chairman. Right.
    Dr. Silberglitt. In all these different markets we would 
have said, maybe, gee, this could be a problem eventually.
    But I think that forecasting can be a problem too, right? 
Because there's so much uncertainty in these markets. They can 
change very rapidly as we've seen with the rare earths and with 
other materials.
    So I think one has to take those forecasts with a grain of 
salt, use them as a guide. I'd like to do foresight rather than 
forecasting. Look at what's plausible and what the range of 
uncertainty is and then yes, these indexes can give you 
benchmarks that might enable you to see when a problem could 
occur.
    The Chairman. Let me ask you, Admiral Cosgriff and Mr. 
Conger or others, if we were better able to forecast or to 
operate with foresight, as Dr. Silberglitt has mentioned, does 
that help us here from a manufacturing perspective?
    Admiral Cosgriff. Oh absolutely. I mean, the 
predictability, that enhanced predictability, that comes with 
this sort of, these sorts of information flows, whether it's a 
forecast or foresight, reinforces the instinct of manufacturers 
to have, to always have a plan B on their supply chain. So what 
happens if?
    So they're not happy about having a single source of 
anything, no matter where that single source is from. So if 
it's in a geopolitical sensitive area that increases their 
risk.
    If there's a marker on the business side or the economic 
side that they get to see then they start to take the logical 
actions you'd expect. How do I mitigate the risk? How do I keep 
this product line going in the face of this sort of challenge? 
So information would drive this.
    The other thing that will drive it is cost. If somebody 
starts manipulating it for some reason at home or abroad that 
would get their attention very quickly, and they'd start 
looking for other sources.
    Intuitively I think my companies identify themselves as 
North American companies so intuitively they would think about 
sourcing closer just to avoid the cost of moving things 
farther.
    So all this, I think, contributes to a notion inside the 
electro industry of wanting to bring as much of this as close 
as you can and have multiple sources available.
    The Chairman. Mr. Conger.
    Mr. Conger. Chairwoman Murkowski, I would also add that if 
the free market system is allowed to work, if I can compete in 
this country with mines in other countries that have the same 
permitting horizons, roughly the same standards, then the 
supply will come from those that are most economically viable 
to do it. And in some of the cases that were pointed out by the 
Vice Admiral, if we had the opportunity to go search for and 
produce those minerals with certainty in this country, you've 
got the opportunity to actually increase the supply and drive 
the cost down.
    So it benefits us in many, many ways, and it should be, you 
know, we should not be giving up a competitive advantage of 
these minerals we have here at home because we've got such a 
difficult permitting horizon to get through.
    The Chairman. Let me ask you all one more question, and it 
is to any of you.
    You have reviewed the legislation that we have introduced 
here. One of the questions that was presented this morning, I 
think, perhaps, left a little bit of confusion about the bill 
itself and whether or not it weakens or removes any requirement 
to provide for environmental safeguards. I want to make sure 
that it is very clear that the intent of the legislation, of 
course, is to do what we can to allow for a more streamlined 
permitting system but in no way to pull the rug out from 
underneath any environmental requirements there. So to any of 
you who may wish to jump in here. Do you believe that the bill 
weakens or waves any of the requirements of existing 
environmental laws? Commissioner Fogels.
    Mr. Fogels. Yes, Senator. The State of Alaska and the 
Interstate Mining Compact Commission, we've reviewed the draft 
bill in its current form and we do not believe that. We believe 
that it provides the opportunity for the Federal agencies to 
evaluate how they do permitting, and it provides some of the 
directions to improve their permitting process.
    In Alaska we've spent a lot of time trying to improve our 
permitting process. And a lot of people will take that to mean 
we're trying to short cut it somehow and reduce protections, 
and that's not at all the case.
    With every mine project that we permit we learn from 
previous mine projects. We learn from mine projects around the 
planet, and we take what's worked well, what hasn't and we 
build on the next mine project.
    So I think we're in a process of continually improving our 
permitting process both environmentally and efficiently, and we 
believe this bill would do that.
    The Chairman. Do you think that any of the Federal agencies 
would carry out the activities that it authorizes in a manner 
that is not environmentally responsible?
    Mr. Fogels. I would certainly hope not, Senator.
    The Chairman. Any other comments? Mr. Conger.
    Mr. Conger. Senator Murkowski, Deputy Commissioner said it 
very well that you're not giving up environmental safeguards. 
We've done it in other countries. It's all about a view to 
working through a process to get to an end point not to just 
keep going through the process with various agencies all on 
their own different path.
    We, you know, the suggestions that have been made here so 
we can coordinate that. We can eliminate duplication, delays 
that come from that and have the same or better outcomes in 
less time but certainly not less safeguards.
    The Chairman. Certainly. Admiral Cosgriff.
    Admiral Cosgriff. I know this isn't the question you asked 
but something that's very much on the minds of my members is 
addressed in the bill which is the workforce development. I 
would congratulate you on that and just suggest that when we 
think about that so the poster child becomes STEM which almost 
by definition tends one to move in the direction of college and 
advanced degrees.
    But a challenge across the electro and medical imaging 
industry is the production workforce readiness too which is a 
different part of the education spectrum.
    So we commend the Committee on addressing the criticality. 
This is a generational shift occurring in our industry, and we 
are actively exploring any and all good ideas and opportunities 
to team with jurisdictions at all level and educators to see if 
we can get this right.
    The Chairman. Thank you for bringing that up because it is 
an absolutely vital piece, not only to this legislation, but 
again, when we look at our workforce that is out there. This is 
an area that I think is very important that we be weighing in 
and addressing.
    I want to thank you each for your contribution here this 
morning in discussing these issues. We talk a lot here in the 
Congress about made in America. We want everything to be made 
in America. We talk a lot about the fact that we do not like 
outsourcing. We want to bring everything back.
    I think it is so important that we recognize that so many 
of the basics we all start out with, with our phones or 
whatever, we would not be able to utilize them were it not for 
the guts of them. And where do those guts come from? It comes 
from the ground.
    If we have greater opportunity to take that from the ground 
here and do so in an environmentally responsible way--which as 
you have stated, Mr. Conger, we have higher standards than 
elsewhere around the world--then we should. It seems we do not 
have a problem taking it from another country where their 
environmental laws may be lax or their work safety or their 
labor laws are abysmal, but we will take the resource because 
we have to have it. We have to have it for our computer 
technologies. We have to have it for our renewable energy 
projects, and we are just going to turn a blind eye to how it 
came to us.
    I do not think that that is responsible. I do not think 
that is how we should be operating when we have that resource, 
when we have that potential.
    So I think it is incumbent upon us. How are we going to 
define exactly what that potential is? How do we ensure that we 
not only know what is in the ground, but how we use responsibly 
what we then take? For purposes of recycling, how we are smart 
that way.
    I do think that we have opportunities through our 
laboratories, through DOE, to be doing more to build out these 
technologies that will allow us greater opportunities for 
recycling, looking to what those alternatives are, but I am 
also very cognizant it is not unlike the goal that we have for 
renewable energy in this country. I, too, would like to get us 
off of fossil fuel, but I know that we just cannot flip that 
switch today and be there. So when we talk about alternatives, 
we need to recognize that there is a transition here, and it is 
going to be years, decades, in coming.
    So how, in the meantime, we allow for a level of security, 
energy security, is what we should be talking about.
    The discussion this morning, I think, is very, very 
important in moving us in that direction. I think what we are 
seeing from some of the states is good. We can work to 
replicate that, but let us push ourselves in terms of how we, 
as a nation, do more for our own energy security initiatives. 
It is not just when it comes to oil and gas, it is also what we 
utilize with our minerals.
    Know this Committee is going to be working on these 
initiatives. We will rely on you as the experts that you 
presented yourselves here today.
    Dr. Kimball, thank you for your leadership, again, at USGS. 
We have got a lot of work to do here, but you are clearly very 
knowledgeable in the arena and we look forward to working with 
you as we develop this moving forward.
    With that, we stand adjourned.
    [Whereupon, at 11:43 a.m. the hearing was adjourned.]
     





                              ----------                              


                      APPENDIX MATERIAL SUBMITTED


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
